Case: 19-10277

Document: 00515617582

Page: 1

Date Filed: 10/27/2020

3Hmteb States Court of appeals
for tfje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

FILED
No. 19-10277
Summary Calendar

October 27, 2020
Lyle W. Cayce
Clerk

Bridget Brown Parson
Plaintiff— Appellant,
versus
Select Portfolio Servicing; U.S. Bank; Mackie Wolf
Law Firm, Professional and Individual, Stephen Wu; Jessica
Holt; Chelsea Schneider, etal\ Bankruptcy Court; Judge
Harlin Hale, Professional and Individual,
Defendants—Appellees.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-774

Before Stewart, Graves and Higginson, Circuit Judges.
Per Curiam:*
Bridget Brown Parson moves for leave to proceed in forma pauperis
(IFP) in her appeal from the dismissal with prejudice of her civil complaint

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 19-10277

Document: 00515617582

Page: 2

Date Filed: 10/27/2020

No. 19-10277

for want of prosecution. By seeking leave to proceed IFP in this court, Parson
is challenging the district court’s denial of leave to proceed IFP and
certification that her appeal would be frivolous and not taken in good faith.
See Baugh v. Taylor, 117 F.3d 197, 202 (5th Cir. 1997). Our inquiry into an
appellant’s good faith “is limited to whether the appeal involves legal points
arguable on their merits (and therefore not frivolous). ” Howard, v. King, 707
F.2d 215,220 (5th Cir. 1983) (internal quotation marks and citation omitted).
Parson’s pleadings in this court fail to address the propriety of the
district court’s dismissal with prejudice and its certification decision that this
appeal is not taken in good faith. Her failure to identify any error in the
district court’s analysis has the same effect as if she had not appealed. See
Brinkmann v. Dallas Cnty. Deputy SheriffAbner, 813 F.2d 744, 748 (5th Cir.
1987). Accordingly, Parson’s IFP motion is DENIED, and her appeal is
DISMISSED as FRIVOLOUS. See Baugh, 117 F.3dat 202; Howard, 707
F.2d at 220; 5th Cir. R. 42.2.

2

